UMassFive College Federal Credit Union
200 Westgate Center Drive / PO Box 1060
Hadley, MA 01035
(800) 852-5886
www.umassfive.coop

APPLICATION AND SOLICITATION DISCLOSURES

IMPORTANT CREDIT CARD DISCLOSURES
The following disclosure represents important details concerning your credit card. The information about costs of the card are
accurate as of April 1, 2020
. You can contact us toll free at (800) 852-5886 to inquire if any changes occurred since the
effective date.
INTEREST RATES and INTEREST CHARGES:
Low Rate VISA Platinum
Annual Percentage Rate
(APR) for Purchases &
Balance Transfers
depending on your credit history.
This APR will vary with the market
based on the Prime Rate.
APR for Cash Advances
9.75%, 10.75%, 11.75%, or 13.75%
depending on your credit history.
This APR will vary with the market
based on the Prime Rate.

9.75%, 10.75%,
11.75%, or 13.75%

Cash Back VISA Signature

12.75%, 13.75%, 14.75%,
16.75%, or 18.00%
depending on your credit history.
This APR will vary with the market based on
the Prime Rate.
14.75%, 15.75%, 16.75%, or 18.00%
depending on your credit history.
This APR will vary with the market
based on the Prime Rate.

Paying Interest

Your due date is at least 21 days after we mail your billing statement. We will not charge you
interest on purchases if you pay your entire new purchase balance by the due date each
month, otherwise we will charge you interest as of the date the purchase transaction posted
to your account. We will begin charging interest on cash advances and balance transfers on
the date the transaction posts to your account.

Minimum Interest Charge

None

For Credit Card Tips from
the Consumer Financial
Protection Bureau

To learn more about factors to consider when applying for or using a credit card, visit
the website of the Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore

FEES:
Cash Back VISA Signature

Low Rate VISA Platinum
Fees to Open or Maintain
your Account
- Annual Fee:
- Application Fee:
Transaction Fees
- Balance Transfer:
- Cash Advance:
- Foreign Transaction:

Penalty Fees
- Late Payment:

- Over-the-Credit Limit:
- Returned Payment:

None
None

None
None

None
$10.00 or 3.00% of the amount of each cash
advance, whichever is greater.
1.00% of each transaction in U.S. dollars if
the transaction involves a currency
conversion; 0.80% of each transaction in
U.S. dollars if the transaction does not
involve a currency conversion.

3% of the amount of each transfer (maximum: $30.00)
$10.00 or 3.00% of the amount of each cash
advance, whichever is greater.
None

Up to $27.00 or the amount of the required minimum payment, whichever is less, if you are
one (1) or more days late in making a payment. In the event you fail to make a payment on
time in any of the six (6) billing cycles following the initial violation, you will be charged up to
$38.00 or the amount of the required minimum payment, whichever is less.
None
Up to $27.00 the first time your payment is returned for any reason within the following 6
billing cycles, you will be charged up to $38.00 for each returned payment.

How We Will Calculate Your Balance: We use a method called "average daily balance (including new purchases)."
Minimum Payment Requirement: $25.00 or 2% of balance plus the full amount of any balance in excess of your credit limit.
9009 LASER DP FI16547 Rev 3-2020

COPYRIGHT 2009 Securian Financial Group, Inc. All rights reserved.

